            Smithsonian Institution




              
OFFICE OF
             AUDIT PLAN
THE
INSPECTOR
             FISCAL YEAR 2013
              
GENERAL 




                    1
                                     Introduction



This Fiscal Year 2013 Audit Plan communicates the Office of the Inspector General’s
priorities to the Smithsonian Institution management, the Board of Regents, the
Congress, and the public.

Our office promotes effective governance and enhances accountability by providing
independent and objective evaluations of the Smithsonian Institution. In
developing this plan, we sought the input of senior management around the
Smithsonian. For the first time, we utilized a risk assessment survey to solicit the
input and viewpoints of Smithsonian management. Our audits will seek to improve
efficiency and effectivetness in programmatic activities. We will also seek to
identify quantifiable cost savings for the Smithsonian, a key performance measure
identified in our Strategic Plan.

The audits for fiscal year 2013 fall into two categories:

   I.     Mandatory Audits: (1) the annual audits of the Smithsonian’s financial
          statements, which we oversee; (2) the annual review under the Federal
          Information Security Management Act, which we also oversee; (3) an
          audit of the travel expenses of members of the Board of Regents,
          conducted at their request to fulfill a statutory requirement; and (4) an
          external peer review.

   II.    Discretionary Audits: audits we selected after considering the key
          ongoing and emerging risks facing the Smithsonian and after evaluating
          the suggested topics from senior management, our congressional
          oversight committees, and the Board of Regents.

The list of audits on the following pages reflect what we can reasonably accomplish
with our current resources. This plan is flexible, and we recognize that issues of
more immediate concern may arise to which we will adjust our priorities
accordingly. We also include a list of potential future audits; however, we do not
anticipate being able to devote coverage of these programs this fiscal year due to
resource constraints. We have developed our own performance measure to
complete the majority of our audits within one year.

On a separate track, we plan to issue our first Top Management and Performance
Challenges Report in November 2012. This Report will identify, supported by our
body of audit work over the last several years, the major program issues facing the
Smithsonian.


Michael Sinko
Assistant Inspector General for Audits
October 5, 2012



                                                                                      1
                        Smithsonian OIG FY 2013 Audit Plan
                           Planned Audit Work for FY 2013




I. Mandatory Audits

     1) Oversight of the Financial Statement Audits

     2) Oversight of the FY 13 Federal Information Security Management Act Program

     3) Travel Expenses of the Members of the Board of Regents

     4) External Peer Review of Another Office of Inspector General’s Audit Organization




II. Discretionary Audits

     5) National Museum of African American History & Culture – Funding, Budget

        & Construction Issues

     6) Selected Operations of the Smithsonian Tropical Research Institute (STRI)

     7) Friends of the National Zoo (FONZ) Financial Operations

     8) Pan-Institutional Approach to Collections Care Initiatives

     9) Management of the Government Purchase Card Program

    10) Management of Leased Office Space

    11) Accountability & Maintenance of the Smithsonian’s Fleet

    12) Collections Stewardship – Security of Transporting High Value Objects

    13) Financial Reporting & Risk Management Internal Controls – Annual

        Assurance Letter Process




                                                                                           2
                           Smithsonian OIG FY 2013 Audit Plan
Mandatory Fiscal Year 2013 Audits in Detail




                                              3
     Smithsonian OIG FY 2013 Audit Plan
                      Oversight of the Financial Statement Audits


Objectives

As the Contracting Officer’s Technical Representative (COTR), we will oversee the
Smithsonian’s annual financial statement audits, which include the Smithsonian-wide
financial statements, the federal special-purpose financial statements, and the OMB Circular
A-133 Audit.


Significance

As COTR with oversight responsibilities for the FY 2012 audit, we will review audit
documentation, evaluate key judgments, and monitor progress in order to express
concurrence with the external auditors’ reports and determine whether their work conforms
to relevant auditing and accounting standards. We will use the Government Accountability
Office Financial Audit Manual and the oversight programs developed by the Council of the
Inspectors General on Integrity and Efficiency as guides for monitoring the IPA’s work. At
the completion of our work we will report the results of our oversight in an assurance letter
to the Audit and Review Committee.

The Smithsonian’s FY 2013 financial statements will be audited by an Independent Public
Accountant (IPA) selected through a contract solicitation process that will culminate in a
selection of an IPA by the Board of Regent’s Audit and Review Committee in the early part
of Calendar Year 2013.


Potential Impact

Our oversight will provide reasonable assurance that the IPA complied with professional
standards in conducting the audits and that the Institution’s financial statements are free
from material misstatement.




                                                                                              4
                            Smithsonian OIG FY 2013 Audit Plan
  Oversight of the FY 13 Federal Information Security Management Act Program


Objectives

We will evaluate the effectiveness of the Smithsonian’s information security policies,
procedures, and practices under the Federal Information Security Management Act
(FISMA), including the effectiveness of the implementation of our recommendations from
prior FISMA reviews.


Significance

The Smithsonian depends on computerized information systems and electronic data to
carry out its programs. Security measures are essential to prevent data tampering and
destruction, service disruptions in critical operations, unauthorized disclosure of sensitive
information, as well as fraud.

Although the Smithsonian is not subject to FISMA, it has elected to implement FISMA
requirements to ensure that it has an effective information security program. FISMA
requires that the OIG perform an independent annual evaluation of the Institution’s
information security program and practices, including the testing and evaluation of controls
to safeguard information and systems. Previous OIG information security audits have
identified significant weaknesses in information systems and highlighted the need for
improvements in network access controls, security awareness and training, disaster
recovery, system documentation, flaw remediation, and configuration management.

An Independent Public Accountant (IPA), will conduct the FISMA evaluation. As the
Contracting Officer’s Technical Representative with oversight responsibilities, we will review
the IPA’s documentation, evaluate key judgments, and monitor progress in order to
express concurrence with the IPA’s reports and to determine whether their work conforms
to relevant auditing and information technology standards and practices.


Potential Impact

The audit will make recommendations to improve the efficiency and effectiveness of the
Smithsonian’s information security program.




                                                                                                5
                             Smithsonian OIG FY 2013 Audit Plan
               Travel Expenses of the Members of the Board of Regents


Objective

We will audit the travel expenses for those members of the Board of Regents who seek
reimbursement for expenses associated with attending Board meetings.


Significance

The Executive Committee of the Board of Regents requested that the Office of the
Inspector General conduct this annual audit to fulfill the statutory requirement under 20
U.S.C. § 44. The audit will ensure that expenditures are authorized, supported, and
reasonable.


Potential Impact

The audit results will provide greater confidence to Congress and the public that
Smithsonian funds are being used responsibly.




                                                                                            6
                            Smithsonian OIG FY 2013 Audit Plan
            External Peer Review of Another Office of Inspector General’s
                                Audit Organization


Objective

The objective of this external peer review is to determine whether a selected Office of
Inspector General’s (OIG) quality control system is suitably designed and operating
effectively to provide reasonable assurance that its audits are performed in accordance with
the Government Accountability Office’s Government Auditing Standards and with its own
policies and procedures.

Significance

Government Auditing Standards require audit organizations to have an appropriate system
of quality control and to undergo external peer reviews at least once every three years. The
Council of Inspectors General for Integrity and Efficiency administers the federal peer
review program whose overall goal is to ensure that all federal audit organizations conduct
high quality audits with competence, integrity, objectivity, and independence.

Impact

The Smthsonian OIG will provide a report and conclusion on the design and effectiveness of
the selected OIG’s system of quality control. The conclusion will state whether the audit
organization has passed, passed with deficiencies, or failed, the peer review. The peer
review report will be published as a matter of public record.




                                                                                           7
                           Smithsonian OIG FY 2013 Audit Plan
Discretionary Fiscal Year 2013 Audits in Detail




                                                  8
      Smithsonian OIG FY 2013 Audit Plan
National Museum of African American History & Culture – Funding, Budget
                         & Construction Issues


Objectives

This audit will continue our ongoing audit presence to ensure that the Smithsonian has
sufficient controls in place to keep the National Museum of African American History and
Culture (NMAAHC) building project on time and within budget. In this second phase, we
will determine whether (1) management’s funding plans align with the timing of projected
expenses, and (2) management has a contingency plan should the Smithsonian not receive
expected federal appropriations or private donations.


Significance

The $500 million project to build NMAAHC will have multiple funding sources, with a 50/50
split between federal appropriations and trust monies. Rather than waiting until the overall
building design is done, the Smithsonian is beginning construction in phases as the design
for those portions are completed. By fast-tracking the project in this manner, the
Smithsonian is able to accelerate its construction schedule and fund the project
incrementally.

Due to the current economic environment, there is a risk that as the construction of the
building progresses, the timing of when the Smithsonian receives funds may not align with
construction schedule demands. For example, the Smithsonian may not receive the full
$85 million in federal appropriations that it requested for FY 2013. The Smithsonian would
need to make up any shortfall in federal appropriations with other funding sources. A delay
in the availability of funds—federal or trust—could negatively impact the construction
schedule, which may result in increased costs and could postpone the opening of the
museum beyond November 2015.


Potential Impact

This audit will make recommendations to strengthen project management to ensure that
NMAAHC opens on time and within budget.




                                                                                           9
                           Smithsonian OIG FY 2013 Audit Plan
Selected Operations of the Smithsonian Tropical Research Institute (STRI)



Objective

The audit will identify and evaluate high risk areas of the Smithsonian Tropical Research
Institute’s (STRI) financial management operations.


Significance

STRI, located in Panama, is devoted to understanding biodiversity through tropical
research. In operation since 1923, it is the only unit of the Smithsonian based outside of
the United States. Its distance from much of the Smithsonian and the unique demands of
operating in another country create management and oversight challenges unlike those of
the other units within the Institution. Such challenges have limited the OIG audit presence
in recent years.

Our audit will focus on a broad range of financial management issues at STRI. The
Smithsonian relies heavily on the financial management capabilities of its decentralized
units. Therefore, the effectiveness of the financial management at the units is critical to the
stewardship of assets and accuracy of the financial statements.


Potential Impact

STRI employs approximately 300 full time staff and is visited by more than 900 scientists
annually. STRI also received more than $21 million in federal appropriations, grants, trust
funds, and donations in fiscal year 2012. Our audit will identify financial management risks
at STRI. For those areas identified, we will recommend improvements to financial
management controls to strengthen safeguarding of assets and improve financial reporting.




                                                                                             10
                            Smithsonian OIG FY 2013 Audit Plan
               Friends of the National Zoo (FONZ) Financial Operations



Objective

We will examine financial operations at FONZ to include benchmarking key metrics and
successful models pertaining to selected concessions categories.


Significance

While the Zoo relies primarily on the federal government for its funding, it also depends
heavily on net proceeds from FONZ-managed revenue operations. FONZ is the private side
of the partnership with the Smithsonian Zoo and it contributes over $4-5 million in support
over the last several years. FONZ's primary role is to make friends and raise funds to
support the Zoo’s and FONZ’s joint mission. FONZ obtains its revenue from direct fund-
raising efforts, volunteer programs, membership programs, and by operating the
merchandise and parking concessions at the Zoo that receives about two million visitors
annually. Revenue provided by FONZ supports conservation and biological education
programs. FONZ also funds grants to Zoo scientists; assists the Zoo in developing new
exhibits; and offers information and other services to Zoo visitors.

FONZ and the Zoo have undergone some recent changes that may increase risks in their
operations. First, in Fiscal Year 2013, FONZ and the Smithsonian plan to implement a
revised agreement governing their joint operations. Second, based on our earlier
discussions with Zoo management, FONZ plans to outsource the Zoo’s food services that
FONZ had operated for many years.


Potential Impact

Our review will assess the adequacy of internal controls over the FONZ’s key financial
activities and recommend improvements to ensure operations have controls to deter,
detect, and prevent fraud, waste, and abuse.




                                                                                         11
                           Smithsonian OIG FY 2013 Audit Plan
               Pan-Institutional Approach to Collections Care Initiatives


Objective

This review continues our ongoing monitoring and assessment of the Smithsonian’s
progress towards a Pan-Institutional approach to collections management challenges for
inventory control and preservation care.

Significance

Between FY 2005 and FY 2011 we conducted four collections management audits including
the three most visible mall museums (National Museum of Natural History, National Air and
Space Museum, and National Museum of American History) and the Cooper-Hewitt National
Design Museum in New York. Prior to these audits, the OIG conducted several similar
audits between 1998 and 2001.

Results of these audits identified a pattern of issues at many of the collecting units audited,
such as:

      Inadequate Inventory Controls
      Security of Collections Areas do not Meet Smithsonian Standards
      Lack of Comprehensive Preservation Programs
      Inadequate Storage Conditions

In response to these audits, Smithsonian management began to place greater emphasis on
collections care including improved security in collections storage areas. To address pan-
institutional collections management issues, management has developed new strategic
initiatives in these three areas:

      Space Planning
      Collections Conditions Assessment
      Accountability & Strategically Driven Digitization

In addition to their strategic initiatives, management needs to address ongoing challenges
in the areas of collections inventory control and preservation care. For example,
management needs to ensure that collecting units conduct and report cyclical inventories
and update records. Management also needs to assess Smithsonian-wide collections
management staffing needs, as well as better utilize preservation resources.

This review will be part of the ongoing series of OIG audits of collections stewardship at the
Smithsonian.

Potential Impact

This review will ensure that the Smithsonian continues to make progress towards
developing a pan-institutional plan with long-term solutions which address inventory control
and preservation care.



                                                                                             12
                             Smithsonian OIG FY 2013 Audit Plan
            Management of the Government Purchase Card Program


Objective

To determine if the Smithsonian exercises effective management and oversight over the
purchase card program.


Significance

The Smithsonian uses purchase cards to reduce the administrative cost of small dollar
purchases, incurring $22.7 million in expenditures for 82,132 transactions during fiscal year
2012. There were 645 open purchase card accounts as of fiscal year end 2012. The
Smithsonian also plans an expanded use of the purchase cards for transactions up to
$10,000 to reduce payment processing costs. Also, Smithsonian management has a
heightened interest in reducing risk of fraud in such vulnerable areas as cash processing
and purchasing.

Because purchase cards allow the same individual to order, pay for, and receive goods and
services, purchase cards are a high risk for misuse, fraud, waste, and abuse. If purchase
card internal controls are not properly designed, it will be difficult for management to
detect and prevent fraudulent purchases or improper uses of the cards.


Potential Impact

Our review will make recommendations to improve internal controls over purchase card use
and strengthen management’s oversight and monitoring of the program.




                                                                                          13
                            Smithsonian OIG FY 2013 Audit Plan
                          Management of Leased Office Space



Objective

The audit will assess how effective the programs are for identifying opportunities to reduce
costs relating to leased office space at the Smithsonian.


Significance

Recognizing the need to reduce facilities costs, the Smithsonian’s Strategic Plan emphasizes
that it will “optimize the use of resources to gain efficiency. … and develop procedures to
enable sharing of equipment and facilities”. Regarding the efficient use of office space, this
audit will examine the following areas:

Policy – We will examine the policy for such matters as authorization of existing office
space and use of alternative office solutions.

Strategic Planning – We will review the business and programmatic planning for use of
future office space. We will determine whether plans for alternative office solutions are
part of the strategic planning process to reduce office space costs.

Management and Oversight – We will examine how the units are controlling the costs of
leased office space and determine whether cost savings could be realized from reducing or
eliminating office space.


Potential Impact

The audit will make recommendations to help ensure that the Smithsonian minimizes costs
associated with leased office space through appropriate controls over its authorization, use,
and management.




                                                                                            14
                            Smithsonian OIG FY 2013 Audit Plan
               . Accountability & Maintenance of the Smithsonian’s Fleet



Objectives

The audit will assess the effectiveness of the Smithsonian’s fleet management, including
provisions for authorizing, controlling, and monitoring vehicle purchase, use, maintenance
and repair services, and disposal.


Significance

In 2007, the Smithsonian purchased a fleet management system, designed to reduce fleet
costs, lower the fleet’s environmental impact, increase utilization, and automate data. In
2008, the Smithsonian implemented the maintenance, fuel, and asset modules of the
system. The Smithsonian has since been able to reduce its petroleum consumption and the
number of light-duty vehicles from 600 to 490 vehicles.

In 2009, President Obama issued Executive Order 13514 – Federal Leadership in
Environmental, Energy, and Economic Performance, which established goals and priorities
towards sustainability in the Federal government. The Office of Management and Budget
began reviewing agency scorecards on sustainability and energy efficiency. One
sustainability area is fleet petroleum use.


Potential Impact

The audit will make recommendations to help ensure that the Smithsonian achieves the
President’s sustainability goals, and minimizes costs associated with motor vehicles,
including maintenance, petroleum, purchase, and disposal costs.




                                                                                         15
                           Smithsonian OIG FY 2013 Audit Plan
       Collections Stewardship – Security of Transporting High Value Objects



Objective

This audit will determine whether museum staff are transporting collection objects with the
appropriate level of security.


Significance

The Smithsonian frequently transports high-value and high-risk collections objects, such as
Stradivarius string instruments, numismatic objects, historical documents, and gems to and
from Smithsonian facilities and other locations for loans, exhibits, performances, research,
and educational purposes. Prior to 2010, the Office of Protection Services’ (OPS) Security
Services Division (SSD) provided security escort services for the safe transport of these
objects. The Smithsonian’s Collections Management Implementation Manual directs
collecting units to contact the Division of Risk Management and SSD to coordinate security
planning, risk assessment issues, and collection transits. Object transport logs for fiscal
years 2008 and 2009 showed that SSD staff regularly transported objects for the National
Museum of American History, the Renwick Gallery, and the National Postal Museum. In
2010, OPS disbanded the SSD unit partly because of a lack of requests for the unit’s
security escort and other services. As a result, there is very little data available related to
activity after 2009.

Since SSD has been disbanded, OPS reassigned responsibility for transporting high value
objects to the individual security managers at each museum. OPS management, the
National Collections Program, and the Office of Risk Management have expressed concern
that museum staffs are transporting objects without OPS guidance or support, increasing
the risk of damage, theft or loss.

This audit will be part of the ongoing series of OIG audits of collections stewardship at the
Smithsonian.


Potential Impact

This audit will make recommendations to ensure that the Smithsonian is taking the
necessary precautions to protect collections objects while in transit.




                                                                                            16
                            Smithsonian OIG FY 2013 Audit Plan
  Financial Reporting & Risk Management Internal Controls – Annual Assurance
                                 Letter Process


Objectives

We will evaluate the effectiveness of the attestation process outlined in Smithsonian
Directive (SD) 310, Financial Reporting and Risk Management Internal Controls, which the
Smithsonian issued in June 2011. Specifically, we will determine if all unit directors that
have been assigned to attest to their units’ internal controls operating effectiveness and
financial information accuracy have an effective process to support their attestation. In
addition, we will determine if the signatories have the prerequisite knowledge or have been
properly trained to understand the attestation process. Lastly, we will determine that any
concerns or deficiencies identified by the units during the attestation process are followed
up on and satisfactorily resolved by Smithsonian management.


Significance

SD310 provides the “policies and procedures for establishing, documenting, assessing, and
reporting on financial management internal controls that are critical for safeguarding
Smithsonian assets and resources”. Most importantly, SD310 requires directors to provide
assurance that their internal controls are efficient and effective. SD310 affects all of the
Institution’s financial personnel, key Smithsonian systems and sub-systems; various
manual and automated processes; and, most importantly, management’s attitude towards
financial accountability and transparency.

Also, SD310 states that the goal of internal controls is to manage risk and to institute
safeguards to minimize fraud, waste, and abuse. The attestation provided by unit directors
is necessary to assure Smithsonian management that internal controls are operating
effectively, and that there are appropriate safeguards to limit fraud, waste, and abuse.


Potential Impact

Our review will identify strengths and weaknesses in the attestation process and we will
recommend improvements to the process that will strengthen the Smithsonian’s safeguards
against fraud, waste, abuse, and mismanagement.




                                                                                          17
                            Smithsonian OIG FY 2013 Audit Plan
                          Potential Future Audits Beyond FY 2013




        Title                                       Objectives

Succession Planning      Determine whether the Smithsonian has an adequate succession
                         plan to meet the needs for leadership, management, and
                         workforce throughout the Smithsonian.
Disaster Recovery        Identify and evaluate current disaster plans to determine
                         whether the Smithsonian’s staff are prepared and collections are
                         secure in case of a disaster.
Implementation of        Evaluate the implementation of the information system and
Office of                business processes put in place by the Office of
Advancement’s            Advancement to support the Smithsonian’s capital campaign.
PANDA system



Privacy Program          Assess the effectiveness of the policies and procedures under
                         development to safeguard personally identifiable information
                         across the Smithsonian.

Wireless Network         Evaluate the use, management, and security of the Smithsonian
Management               Institution’s internal and public access wireless networks.



   Controls over         Determine if funding corrections are appropriate and whether
 Federal/Trust Fund      controls in place are adequate to ensure the proper use and
    Transaction          segregation of funds.
    Adjustments

Digitization Strategic   Evaluate management’s progress in pursuing the digitization of
         Plan            selected collection objects.

  Physical Security      Determine if management has an adequate plan to address the
                         museums’ high risk protection areas and the safety of the
                         visiting public.
Improper Payments        To determine whether there are sufficient financial controls to
                         identify and prevent improper payments in the Smithsonian’s
                         high risk programs.




                                                                                            18
                              Smithsonian OIG FY 2013 Audit Plan
